                 U.S. ELECTION ASSISTANCE
                        COMMISSION
                 OFFICE OF INSPECTOR GENERAL




                           FINAL REPORT:

                 ADMINISTRATION OF PAYMENTS
                   RECEIVED UNDER THE HELP
                AMERICA VOTE ACT BY THE STATE
                  OF MISSOURI SECRETARY OF
                            STATE

                   MAY 1,2003 THROUGH FEBRUARY 28,2007




Report No.
E-HP-MO-04-07
October 2007
                         U.S. ELECTION ASSISTANCE COMMISSION
                                  OFFICE OF INSPECTOR GENERAL
                                1225 New York Ave. NW - Suite 1100
                                      Washington, DC 20005

                                                                                 October 26, 2007

Memorandum

To:        Thomas Wilkey
           Executive Director

From:      Curtis W. Crider
           Inspector General

Subject:   Final Audit Report - Administration of Payments Received Under the Help America
           Vote Act by the State of Missouri Secretary of State
           (Assignment Number E-HP-MO-04-07)

         We contracted with the independent certified public accounting firm of Clifton
Gunderson LLP (Clifton Gunderson) to audit the administration of payments received under the
Help America Vote Act (HAVA) by the State of Missouri Secretary of State (Secretary of State).
The contract required that the audit be done in accordance with U.S. generally accepted
government auditing standards. Clifton Gunderson is responsible for the attached auditor’s
report and the conclusions expressed therein.

          In its audit of the Secretary of State, Clifton Gunderson concluded that, except for the
state’s non-recognition of program income, and issues at the county level regarding HAVA
related activities involving equipment controls and use, program income accounting and
recognition, procurement and disbursement procedures, and cash management controls, our audit
concluded that the Secretary of State generally accounted for and expended HAVA funds in
accordance with the HAVA requirements and complied with the financial management
requirements established by the U.S. Election Assistance Commission. The Secretary of State
also complied with section 251 requirements.

       In an October 17, 2007 response to the draft report (Appendix A), the Secretary of State
agreed with the report’s findings and recommendations, and detailed the procedures either that
had been implemented or that were planned to address the concerns.

       Please provide us with your written response to the recommendations included in this
report by December 28, 2007. Your response should contain information on actions taken or
planned, including target dates and titles of EAC officials responsible for implementing the
recommendations.

        The legislation, as amended, creating the Office of Inspector General (5 U.S.C. § App.3)
requires semiannual reporting to Congress on all audit reports issued, actions taken to implement
audit recommendations, and recommendations that have not been implemented. Therefore, this
report will be included in our next semiannual report to Congress.

        If you have any questions regarding this report, please call me at (202) 566-3125.
  PERFORMANCE AUDIT REPORT

  ADMINISTRATION OF PAYMENTS
   RECEIVED UNDER THE HELP
AMERICA VOTE ACT BY THE MISSOURI
      SECRETARY OF STATE

  May 1, 2003 Through February 28, 2007


    UNITED STATES ELECTION
    ASSISTANCE COMMISSION
                                                      TABLE OF CONTENTS




                                                                                                                                              PAGE

EXECUTIVE SUMMARY...........................................................................................................................1

BACKGROUND .............................................................................................................................................2

AUDIT OBJECTIVES ..................................................................................................................................2

SCOPE AND METHODOLOGY.............................................................................................................3

AUDIT RESULTS..........................................................................................................................................4

APPENDICES

Appendix A: Secretary Of State’s Response To Audit Results ..........................................................7

Appendix B: Audit Methodology..............................................................................................................11

Appendix C: Monetary Impact as of February 28, 2007.....................................................................13
  A1
                               U.S. Elections Assistance Commission
                Performance Audit of the Administration of Payments Received Under the
                            Help America Vote Act by the State of Missouri


  EXECUTIVE SUMMARY

  Clifton Gunderson LLP was engaged by the U.S. Election Assistance Commission (EAC or the
  Commission) Office of Inspector General to conduct a performance audit of the Missouri Secretary
  of State (SOS) for the period May 1, 2003 through February 28, 2007 to determine whether the SOS
  used payments authorized by Sections 101, 102, and 251 of the Help America Vote Act of 2002
  (HAVA or the Act) in accordance with HAVA and applicable requirements; accurately and properly
  accounted for property purchased with HAVA payments and for program income, and met HAVA
  requirements for Section 251 funds for an election fund, for a matching contribution, and for
  maintenance of a base level of state outlays. In addition, the Commission requires states to comply
  with certain financial management requirements, specifically:

       •     Comply with the Uniform Administrative Requirements For Grants And Cooperative Agreements With
             State And Local Governments (also known as the “Common Rule”) as published in the Code of
             Federal Regulations 41 CFR 105-71.

       •     Expend payments in accordance with cost principles for establishing the allowance or
             disallowance of certain items of cost for federal participation issued by the Office of
             Management and Budget (OMB) in Circular A-87.

       •     Submit detailed annual financial reports on the use of Title I and Title II payments.

  We conducted this performance audit in accordance with Generally Accepted Government Auditing
  Standards. Those standards require that we plan and perform the audit to obtain sufficient,
  appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
  audit objectives. We believe that the evidence obtained provides a reasonable basis for our findings
  and conclusions based on the audit objectives. Because of inherent limitations, a study and
  evaluation made for the limited purposes of our review would not necessarily disclose all weaknesses
  in administering HAVA payments.

  Except for the state’s non-recognition of program income and issues at the county level regarding
  HAVA related activities, which are discussed below, our audit concluded that SOS generally
  accounted for and expended HAVA funds in accordance with the requirements mentioned above.
  This includes compliance with section 251 requirements for an election fund. The exceptions noted
  above in two areas needing SOS’s management attention are as follows:

       •     As of February 28, 2007, program income was not properly reported on the Financial Status
             report.
11710 Beltsville Drive, Suite 300
Calverton, Maryland 20705



                                                                                            h
tel: 301-931-2050
fax: 301-931-1710
www.cliftoncpa.com                                           1
                                          Offices in 15 states and Washington, DC
   •   The State’s oversight and monitoring of its subgrantees should be enhanced to ensure
       compliance with HAVA grant requirements relating to equipment controls and use; program
       income accounting and recognition; procurement and disbursement procedures; and cash
       management controls.

We have included in this report the SOS’s formal response to the findings and recommendations
dated July 27, 2007. The SOS agreed with the recommendations and has implemented corrective
action.

BACKGROUND

The Help America Vote Act of 2002 created the U.S. Election Assistance Commission to assist
states and insular areas with the improvement of the administration of Federal elections and to
provide funds to states to help implement these improvements. HAVA authorizes payments to states
under Titles I and II, as follows:

   •   Title I, Section 101 payments are for activities such as complying with Title III of HAVA for
       uniform and nondiscriminatory election technology and administration requirements,
       improving the administration of elections for Federal office, educating voters, training
       election officials and poll workers, and developing a state plan for requirements payments.

   •   Title I, Section 102 payments are available only for the replacement of punch card and lever
       action voting systems.

   •   Title II, Section 251 requirements payments are for complying with Title III requirements for
       voting system equipment; and for addressing provisional voting, voting information,
       statewide voter registration lists, and voters who register by mail.

Title II also requires that states must:
    • Have appropriated funds “equal to 5 percent of the total amount to be spent for such
         activities [activities for which requirements payments are made].” (Section 253)(5)).

   •   “Maintain the expenditures of the State for activities funded by the [requirements] payment at
       a level that is not less than the level of such expenditures maintained by the State for the fiscal
       year ending prior to November 2000.” (Section 254 (a) (7)).

   •   Establish an election fund for amounts appropriated by the state “for carrying out the
       activities for which the requirements payment is made,” for the Federal requirements
       payments received, for “such other amounts as may be appropriated under law,” and for
       “interest earned on deposits of the fund.” (Section 254 )(1)).

AUDIT OBJECTIVES

The objectives of our audit were to determine whether the State of Missouri:

   1. Used payments authorized by Sections 101, 102, and 251 of the Help America Vote Act



                                                   2
       (HAVA) in accordance with HAVA and applicable requirements;

    2. Accurately and properly accounted for property purchased with HAVA payments and for
       program income;

    3. Met HAVA requirements for Section 251 funds for an election fund, for a matching
       contribution, and for maintenance of a base level of state outlays.

In addition, to account for HAVA payments, the Act requires states to maintain records that are
consistent with sound accounting principles, that fully disclose the amount and disposition of the
payments, that identify the project costs financed with the payments and other sources, and that will
facilitate an effective audit. The Commission requires states receiving HAVA funds to comply with
certain financial management requirements, specifically:

    4. Comply with the Uniform Administrative Requirements For Grants And Cooperative Agreements With
       State and Local Governments (also known as the “Common Rule”) as published in the Code of
       Federal Regulations at 41 CFR 105-71.

    5. Expend payments in accordance with cost principles for establishing the allowance or
       disallowance of certain items of cost for federal participation issued by the Office of
       Management and Budget (OMB) in Circular A-87.

    6. Submit detailed annual financial reports on the use of Title I and Title II payments.1

SCOPE AND METHODOLOGY

We audited the HAVA funds received and disbursed by the SOS from May 1, 2003 through
February 28, 2007.

Funds received and disbursed from May 1, 2003 (program initiation date) to February 28, 2007 (46-
month period) are shown below:


                               FUNDS RECEIVED
 TYPE OF         EAC           STATE  INTEREST  TOTAL     FUNDS                           DATA
PAYMENT        PAYMENT         MATCH   EARNED AVAILABLE DISBURSED                         AS OF

    101          $ 5,875,170            $0      $460,648     $6,335,818   $ 2,479,356     2/28/07
    102           11,472,841             0       646,781     12,119,622     12,119,622    2/28/07
    251           44,914,650     2,363,929     3,049,485     50,328,064     38,033,366    2/28/07

                 $62,262,661    $2,363,929    $4,156,914    $68,783,504     $52,632,344


1EAC requires states to submit annual reports on the expenditure of HAVA Sections 101, 102, and
251 funds. For Sections 101 and 102, reports are due on September 30 for the activities of the
previous calendar year. For Section 251, reports are due by March 31 for the activities of the
previous fiscal year ending on September 30.


                                                  3
Our audit methodology is set forth in Appendix B.

AUDIT RESULTS

We conducted this performance audit in accordance with Generally Accepted Government Auditing
Standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on the audit objectives. Because of inherent limitations, a study and
evaluation made for the limited purposes of our review would not necessarily disclose all weaknesses
in administering HAVA payments.

Except for the state program income and monitoring of subgrantees, our audit concluded that SOS
generally accounted for and expended HAVA funds in accordance with the requirements mentioned
above. This includes compliance with section 251 requirements for an election fund and for
maintenance of a base level of state outlays. The exceptions in two areas needing SOS’s management
attention are described below:

I.   Reporting of Program Income

As of February 28, 2007, program income earned by the SOS from the sale of voter’s registration
lists, totaling $4,318, was not properly reported on the Financial Status Report, Form SF 269. The
State did not begin selling voter registration lists from the Missouri Centralized Voter Registration
database until late fiscal year 2006. According to the Uniform Administrative Requirements for
Grants and Cooperative Agreements with State and Local Governments (41 CFR 105-71.125)
program income is defined as gross income received from a grant-supported activity during the
grant period and includes items such as fees from the sale of commodities or items fabricated under
a grant agreement. Program income shall be deducted from outlays which may be both Federal and
non-Federal or as authorized by the Federal agency.

Recommendations:

1. We recommend the Secretary of State identify the costs associated with the program income and
   identify the net income to be reported on the Financial Status Report, Form SF 269. We also
   recommend that funds be identified and expended for uses and activities authorized by the
   HAVA Act.

2. Ensure that the Financial Status Report, SF 269 contains complete and accurate information
   prior to filing, as identified on EAC’s website at http://www.eac.gov/docs/Model 269 Title II
   final.pdf.

SOS’s Response:

The Secretary of State issued a revised FSR dated June 1, 2007 to properly account for program
income earned from the sale of voter’s registration lists.




                                                 4
II.    Oversight and Monitoring of Subgrantees

The Secretary of State implemented monitoring procedures of its subgrantees as part of its
corrective action plan to the Fiscal Year 2005 Single Audit; however, we identified several issues at
the local election authorities’ (LEAs) offices we visited that could have been prevented or minimized
with enhanced monitoring, as follows:

      1. Equipment used for non-HAVA related functions at LEAs
      Equipment purchased with HAVA funds, such as monitors and laptops for Missouri Centralized
      Voter Registration (MCVR) access, is also being used for operations of the County Clerks’
      offices. We reviewed the survey results of LEAs not visited, and noted that equipment for
      MCVR database is being used for non-HAVA related operations at LEAs. There is no evidence
      that equipment costs were allocated between the general operations of the LEA and the HAVA
      related activities

      2. Program income not properly accounted for and reported.
      Program income generated at the LEAs from the sale of voter registration lists from the MCVR
      database is not properly reported, recorded, or used for the HAVA program. Program income is
      deposited in LEA’s general fund for three of the six LEAs visited and is not used for HAVA
      activities.

      3. Competitive bid procedures not adequate or non compliant.
      Many of the LEAs opted to negotiate their own contract for voting equipment. However, none
      of the LEAs determined whether vendors were suspended or debarred from conducting
      business with the federal government.

      In addition, one of the six LEAs visited listed the specific brand name of equipment it wanted in
      its advertisement and request for proposal (RFP), and RFPs were written by the vendor that was
      awarded the contract for two of the six LEAs visited.

      Written policies and procedures are not present at all LEAs to ensure competitive bids are
      obtained.

      4. Cash management not performed properly at all LEAs.
      Cash advances were made to the LEAs until fiscal year 2006. We noted that cash balances were
      on hand at all LEA’s for periods in excess of three days. Most of the LEAs calculated interest
      on HAVA cash balances; however, we noted that although interest is calculated on HAVA
      balances, the interest was not deposited into the HAVA account for two LEAs. In addition, one
      LEA did not begin calculating interest from inception of receiving the funds and balances
      remain for most LEAs on the unspent interest.

      5. Disbursements not appropriate or not supported at two LEAs.
      Two disbursements, totaling $183, for two of the six local election authorities (LEAs) visited did
      not have adequate documentation or evidence to support costs claimed against the HAVA grant
      program.

The Uniform Administrative Requirements for Grants and Cooperative Agreements with State and Local
Governments 41CFR § 105-71.140 states that Grantees are responsible for managing the day-to-day

                                                    5
operations of grant and subgrant supported activities. Grantees must monitor grant and subgrant
supported activities to assure compliance with applicable Federal requirements and that performance
goals are being achieved.

Recommendations:

We recommend the EAC direct the Secretary of State to continue its efforts in monitoring the LEAs
on a risk based approach. In addition, the Secretary should ensure appropriate corrective action is
implemented at the LEAs visited during this audit.

SOS’s Response:

The Secretary of State provided additional guidance to the LEAs dated June 2007 to address the
issues noted above, and the procedures that either have been implemented or proposed are outlined
in their response at Appendix A.

                            ****************************************

We provided a draft of our report to the appropriate individuals of the State of Missouri Secretary of
State, and the United States Election Assistance Commission. We considered any comments
received prior to finalizing this report.

CG performed its work between March 19, 2007 and July 20, 2007.




a1
Calverton, Maryland




                                                  6
                                                                                        Appendix B

                                    AUDIT METHODOLOGY


Our audit methodology included:

•   Assessing audit risk and significance within the context of the audit objectives.

•   Obtaining an understanding of internal control that is significant to the administration of the
    HAVA funds.

•   Understanding relevant information systems controls as applicable.

•   Identifying sources of evidence and the amount and type of evidence required.

•   Determining whether other auditors have conducted, or are conducting, audits of the program
    that could be relevant to the audit objectives.

To implement our audit methodology, below are some of the audit procedures we performed:

•   Interviewed appropriate SOS employees about the organization and operations of the HAVA
    program.

•   Reviewed prior single audit report and other reviews related to the state’s financial management
    systems and the HAVA program for the last 2 years.

•   Reviewed policies, procedures and regulations for the SOS’s management and accounting
    systems as they relate to the administration of HAVA programs.

•   Analyzed the inventory lists of equipment purchased with HAVA funds.

•   Tested major purchases and supporting documentation.

•   Tested randomly sampled payments made with the HAVA funds.

•   Verified support for reimbursements to local governments (counties, cities, and municipalities).

•   Reviewed certain state laws that impacted the election fund.

•   Examined appropriations and expenditure reports for state funds used to maintain the level of
    expenses for elections at least equal to the amount expended in fiscal year 2000 and to meet the
    five percent matching requirement for section 251 requirements payments.

•   Reviewed/examined information regarding source/supporting documents kept for maintenance
    of effort and matching contributions.


                                                  11
•   Evaluated compliance with the requirements for accumulating financial information reported to
    the Commission on the Financial Status Reports, Form SF 269, accounting for property,
    purchasing HAVA related goods and services, and accounting for salaries.

•   Verified the establishment and maintenance of an election fund.

•   Verified whether the state has sustained the state’s level of expenditures for Elections.

•   Conducted site visits of selected local election authorities (LEAs) to perform the following:

                        Observe equipment purchased with HAVA funds for proper accounting and
                        safeguarding
                        Test disbursement of HAVA funds for allowability and compliance
                        Test cash receipts from SOS to ensure proper cash management
                        Test procurement of voting equipment for competitive bid process
                        Ensure compliance with HAVA Act.




                                                  12
                                                             Appendix C



          MONETARY IMPACT AS OF FEBRUARY 28, 2007


                                   Questioned    Additional Funds for
             Description             Costs             Program

Program Income not reported                 $0                 $4,318

Oversight & Monitoring
   • Program Income                          0                  4,968
   • Unallowable Costs                     183                      0
Totals                                    $183                 $9,286




                              13
                      The OIG audit mission is to provide timely, high-quality
                      professional products and services that are useful to OIG’s clients.
                      OIG seeks to provide value through its work, which is designed to
                      enhance the economy, efficiency, and effectiveness in EAC
OIG’s Mission         operations so they work better and cost less in the context of
                      today's declining resources. OIG also seeks to detect and prevent
                      fraud, waste, abuse, and mismanagement in these programs and
                      operations. Products and services include traditional financial and
                      performance audits, contract and grant audits, information systems
                      audits, and evaluations.


                      Copies of OIG reports can be requested by e-mail.
                      (eacoig@eac.gov).

                      Mail orders should be sent to:
Obtaining
Copies of             U.S. Election Assistance Commission
                      Office of Inspector General
OIG Reports
                      1225 New York Ave. NW - Suite 1100
                      Washington, DC 20005
                      To order by phone: Voice: (202) 566-3100
                                          Fax: (202) 566-0957


To Report Fraud,      By Mail: U.S. Election Assistance Commission
Waste and Abuse                Office of Inspector General
Involving the U.S.             1225 New York Ave. NW - Suite 1100
Election Assistance            Washington, DC 20005
Commission or Help
                      E-mail:   eacoig@eac.gov
America Vote Act
Funds                 OIG Hotline: 866-552-0004 (toll free)

                      FAX: 202-566-0957
